                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                           Audit of Broadcasting Board

                                        of Governors Compliance With the

                                       Improper Payments Information Act


                                             Report Number AUD/IB-12-32, March 2012




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                 UNCLASSIFIED



Acronyms

AO         Administrative Officer
BBG        Broadcasting Board of Governors
IPERA      Improper Payments Elimination and Reduction Act
IPIA       Improper Payments Information Act
OIG        Office of Inspector General
OMB        Office of Management and Budget
PAR        Performance and Accountability Report




                                 UNCLASSIFIED

                                                          UNCLASSIFIED



                                                          Table of Contents


Section                                                                                                                                  Page


Executive Summary.........................................................................................................................1


Background…. .................................................................................................................................2


Objective……. .................................................................................................................................4


Audit Results ..................................................................................................................................5

       Finding A. Risk Assessment Was Not Performed as Required ..........................................5

       Finding B. Payment Recapture Audit Techniques Were Not Implemented as Required ...6

       Finding C. PAR Did Not Include All Required Information...............................................9


List of Recommendations ..............................................................................................................11


Appendices

      A. Scope and Methodology................................................................................................12

      B. Broadcasting Board of Governors Response ................................................................14


Major Contributors to This Report ................................................................................................17





                                                          UNCLASSIFIED

                                       UNCLASSIFIED


                                    Executive Summary
        According to the Office of Management and Budget (OMB), each year the Federal
Government wastes billions of taxpayer dollars on improper payments. Improper payments are
an issue that has been receiving increased attention within the Federal Government. In 2010, the
Improper Payments Elimination and Recovery Act 1 (IPERA), which amended the Improper
Payments Information Act 2 (IPIA), was enacted. IPERA strengthened IPIA by increasing
requirements for identifying and recovering improper payments. As required by IPERA, OMB
issued guidance to implement these requirements.

       IPERA requires agencies’ Offices of Inspector General (OIG) to annually determine
compliance with improper payments requirements. 3 In accordance with this requirement, OIG
conducted this audit to determine whether the Broadcasting Board of Governors (BBG) was in
compliance with IPIA, which was amended by IPERA.

        OIG found that BBG had not implemented all requirements for identifying and reporting
data on improper payments. Specifically, BBG had not performed an assessment of the risk of
improper payments as required because it had concluded that BBG was at low risk for making
significant improper payments. BBG also had not implemented a payment recapture audit
program because it concluded that this additional control would not be cost effective. In
addition, BBG had not included all required information in its Performance and Accountability
Report (PAR). BBG’s policies did not include requirements for confirming that the information
included in the PAR was complete. BBG officials stated that BBG would improve the
information reported in the FY 2012 PAR.

Management Comments

       In its February 2012 draft of this report provided to BBG, OIG made three
recommendations for BBG to improve compliance with IPIA. Specifically, OIG recommended
that BBG either perform a risk assessment and implement recapture audit techniques or better
document the determination that these processes were not beneficial. In addition, OIG
recommended that BBG develop a standardized process to ensure that all required information is
included in the PAR.

         In its March 6, 2012, response (see Appendix B), BBG indicated that it planned to
complete a risk assessment of improper payments during FY 2012, that it was in the process of
soliciting vendors to complete a recapture audit for BBG, and that it would include all required
information in its FY 2012 PAR.

        OIG considers the three recommendations resolved because BBG indicated that steps are
being taken to implement the recommendations. However, these recommendations will remain
open until BBG provides documentation showing that it has taken actions to fully implement the
recommendations.

1
  Pub. L. No. 111-204.
2
  Pub. L. No. 107-300.
3
  Pub. L. No. 111-204 § 3(b).

                                            1
                                       UNCLASSIFIED
                                          UNCLASSIFIED



                                           Background
        In FY 2010, despite efforts to reduce improper payments, Federal agencies reported
approximately $125 billion in improper payments. Improper payments are payments that should
not have been made or were made in the incorrect amount, which can include duplicate
payments, payments to ineligible recipients, or payments made without sufficient documentation.
Federal agencies need to improve the design and implementation of controls to prevent and
detect improper payments.

       Improper payments are a widespread and significant issue that has been receiving
increased attention within the Federal Government. In 2002, IPIA 4 was enacted, which required
agencies to annually review programs and activities in order to identify programs and activities
susceptible to significant improper payments and to report that information to Congress.

        During FY 2010, the Government implemented a number of changes to strengthen the
framework for reducing and reporting improper payments. For example, the President issued
Executive Order 13520, Reducing Improper Payments and Eliminating Waste in Federal
Programs, which focused on Government transparency, agency and contractor accountability,
and coordination between agencies. The President also issued two memoranda intended to
expand agency efforts to recapture overpayments and directed that a “Do Not Pay List” be
established to help prevent improper payments.

        On July 22, 2010, the President signed into law IPERA, 5 which amended IPIA. IPERA
strengthened IPIA by increasing management accountability and requiring additional efforts to
recover improper payments. IPERA also required agencies’ Inspectors General to annually
determine compliance with improper payments requirements. In addition, IPERA instructed
OMB to provide guidance to agencies on implementing the new requirements. On April 14,
2011, OMB issued a revision to Appendix C of OMB Circular A-123, Management’s
Responsibility for Internal Control. The OMB guidance provides information to agencies for
implementing the IPERA requirements and was required to be used for FY 2011 reporting.
Significant components of the guidance include requirements for the following:

           •	 Reviewing programs to identify those programs susceptible to significant improper
              payments.
           •	 Expanding payment recapture audits to all types of payments and activities with more
              than $1 million in annual expenditures if cost effective.
           •	 Improving corrective action plans.
           •	 Distributing funds recovered through payment recapture audits for authorized
              purposes.
           •	 Establishing compliance reviews.



4
    Pub. L. No. 107-300.
5
    Pub. L. No. 111-204.

                                               2
                                          UNCLASSIFIED
                                             UNCLASSIFIED



BBG’s Payment Process

       For FY 2011, BBG reported approximately $799 million in gross costs; 6 about
$45 million of that amount was related to intragovernmental transactions and another
$239 million was for personnel and benefits costs. 7 Of the remaining amount of approximately
$515 million, $244 million was related to grants. As a steward of taxpayer money, BBG is
accountable for how it uses its funds and is responsible for safeguarding against improper
payments.

        BBG has a standard process in place for making payments. When an invoice is sent from
the vendor, it goes directly to the program office. The program office must document that the
goods or services were received and accepted. Two different people in the program office are
involved in the approval process: the receiving official accepts the goods or services, and the
administrative officer (AO) reviews the invoice to ensure that it is accurate. For instance, the
AO will verify that there is sufficient funding available to pay the invoice, the invoice number is
unique, the work was performed within the authorized period of performance, the invoice is
mathematically correct, and the rates match the contract. The program office electronically
scans the invoice and other documentation and saves the documents in BBG’s accounting
system.

        Once the information is entered into the accounting system, the transaction is routed to
the Office of Financial Operations. BBG’s accounting system has automated controls that verify
certain payment-related information; for example, it will identify duplicate invoice numbers
related to one vendor. The voucher examiner and certifying officer from the Office of Financial
Operations perform another review of the invoice supporting documentation, which includes
ensuring that invoice data matches information entered into the accounting system.

       According to BBG’s FY 2011 Performance and Accountability Report (PAR), BBG
annually monitors payment operations and invests in staff training to ensure that erroneous
payments do not occur. During FY 2011, BBG identified six erroneous payments, totaling
$263,000, each of which was recovered.

Prior OIG Reports

       OIG did not identify any prior OIG reports that were specifically related to improper
payments at BBG. However, OIG noted that the external financial statement auditor assessed
BBG expenditures during its FY 2011 audit. The most recent financial statement audit report,
Independent Auditor’s Report on the Broadcasting Board of Governors 2011 and 2010 Financial
Statements, 8 did not include any findings specific to improper payments. However, the




6
  Gross costs would include items such as operating expenses, benefits, and depreciation.

7
  OMB Circular A-123, Appendix C, states that for purposes of assessing improper payments for IPERA, neither 

intragovernmental nor personnel expenditures need to be considered.

8
  AUD/IB-12-07, Nov. 2011.


                                                  3
                                             UNCLASSIFIED
                                            UNCLASSIFIED


management letter 9 related to this audit noted that BBG could not provide documentation to
support the validity of four domestic operating expenses.

                                                Objective
       The overall objective of this audit was to determine whether BBG was in compliance
with IPIA, which was amended by IPERA. In order to accomplish this objective, OIG

        •	 Evaluated whether BBG conducted a program specific risk assessment for programs
           and activities.

        •	 Evaluated BBG’s performance in preventing, reducing, and recapturing improper
           payments.

        •	 Reviewed BBG’s FY 2011 PAR to determine whether BBG complied with reporting
           requirements.




9
 Management Letter Related to the Audit of the Broadcasting Board of Governors 2011 and 2010 Financial
Statements (AUD/IB-12-08, Feb. 2012).

                                                 4
                                            UNCLASSIFIED
                                                UNCLASSIFIED



                                                 Audit Results


Finding A. Risk Assessment Was Not Performed as Required

       A key control for identifying improper payments is a risk assessment, which is a
comprehensive review and analysis of program operations to identify risks and measure the
impact of those risks. OIG found that BBG had not performed the required risk assessment for
improper payments because it concluded that BBG was at low risk overall for making significant
improper payments. By not conducting a risk assessment, BBG cannot ensure that controls to
prevent improper payments are operating as intended.

        According to IPERA, agencies should use guidance provided by OMB to perform a
review, also known as a “risk assessment,” in order to identify programs that may be susceptible
to significant improper payments. OMB Circular A-123, Appendix C, defines the term
“program” as activities or sets of activities recognized as programs, including grants and all
types of procurements. 10 Unless an agency has a written waiver from OMB, the agency is
required to take certain actions to identify programs at risk of significant improper payments.
IPERA defines “significant improper payments” as incorrect payments within a program that
exceed both 2.5 percent of program expenditures and $10 million in one year or $100 million.
The method used by the agency to identify risk-susceptible programs should be systematic and
can be based on a statistical sample or an analysis of risk factors.

        BBG had not performed a risk assessment of its programs as required. A BBG official
stated that the most significant factor leading to its decision that a risk assessment was not
needed was that BBG considers itself at low risk overall to make a significant amount of
improper payments. BBG concluded that significant improper payments, as defined by IPERA,
would be unlikely given BBG’s existing controls over payments, the low amount of its average
payment, and its past history of identifying few improper payments. BBG did not document its
decision to not perform the required risk assessment.

        A BBG official stated that BBG had considered the controls in place related to making
payments and noted that several independent staff people review invoices before a payment is
made and that the accounting system has certain automated controls. BBG also considered the
types of payments that it makes in order to determine whether significant improper payments
were likely. A BBG official stated that about 80 percent of BBG’s invoices are for small
amounts. 11 Many larger payments are either repetitive (the same amount each payment, such as
leases) or are made to BBG’s three main grantees. Because of the high volume of low-dollar
invoices, BBG officials stated that they believed it was unlikely that improper payments would
be significant. In addition, during FY 2011, BBG identified only six improper payments,
totaling $263,000, which was less than 1 percent of BBG’s FY 2011 expenditures. Based on
these factors, BBG determined that it was not necessary to perform an improper payments risk
assessment. A BBG official stated that BBG has limited staffing resources and must focus on
essential work.

10
     Intragovernmental transactions and personnel costs are exempted from the requirements.
11
     BBG estimated that the average expenditure per transaction was less than $9,200.

                                                     5
                                                UNCLASSIFIED
                                        UNCLASSIFIED


        Although BBG’s average transaction amount may be relatively small, in FY 2011 BBG
expended more than $500 million in expenditures unrelated to personnel or Federal Government
transactions; more than $240 million of that amount was for grant payments. Because BBG is
expending a sizable amount of Government funds, it should ensure that it is making supportable
and documented decisions related to improper payments. OIG noted that the Nuclear Regulatory
Commission and the Corporation for National and Community Service, other agencies similar in
size to BBG, reported performing risk assessments in accordance with IPERA.

        By not performing a risk assessment, BBG does not have a systematic measurement of
the extent of the improper payments at BBG, and so management cannot determine whether
improper payments are significant enough to require corrective action. A thorough risk
assessment allows entities to target high-risk areas and focus limited resources where the greatest
exposure exists. The information developed during a risk assessment forms the basis upon
which management can determine the nature and type of corrective actions needed, and it gives
management baseline information for measuring progress in reducing improper payments.
Having developed such a framework, an organization is well positioned to determine which
control activities to implement to reduce risks and ultimately reduce fraud and errors.

       Recommendation 1. OIG recommends that the Office of Financial Operations either
       perform a risk assessment to identify programs at high risk of improper payments or
       formally document the factors used to reach its conclusion that a risk assessment is not
       needed. If the Office of Financial Operations performs a risk assessment, the process
       should be formally documented in its policies. If a risk assessment is not performed, the
       Office of Financial Operations should document the Chief Financial Officer’s approval.
       In addition, the Office of Financial Operations should reassess the decision annually to
       ensure that any changes in operating conditions are considered.

       BBG Response: BBG stated that it plans on “completing a risk assessment of improper
       payments” during FY 2012 to identify programs “yielding the greatest exposure for
       improper payments.” BBG also plans to create a policy for the risk assessment process
       and document the results of the risk assessment.

       OIG Reply: OIG considers the recommendation resolved, pending further action. This
       recommendation can be closed pending OIG’s review and acceptance of BBG’s risk
       assessment of improper payments.

Finding B. Payment Recapture Audit Techniques Were Not Implemented as
Required
        Once an agency has identified programs that are at risk, it needs to take action to mitigate
risk. Control activities are the techniques that agencies use to address improper payments, which
can include both prepayment and postpayment mechanisms. One type of postpayment control is
a recapture audit program. BBG has prepayment controls in place. Although BBG officials
stated that BBG plans to improve postpayment control activities, BBG currently has not
implemented recapture audit techniques as required because it concluded that additional controls


                                             6
                                        UNCLASSIFIED
                                                  UNCLASSIFIED


would not be cost effective. Without sufficient postpayment controls in place, BBG may not be
identifying all improper payments.

        Agencies should implement a cost-effective program to prevent, detect, and recover
overpayments. IPERA requires agencies with programs that have expenditures of over
$1 million annually to conduct recovery audits if cost effective. A recovery audit, which is
called a “payment recapture audit” by OMB, is a review or analysis of pertinent payment
information that is specifically designed to identify overpayments, and it may be performed by
employees or contractors. 12 Payment recapture auditing techniques include data mining and
predictive modeling.

        OMB guidance states that agencies should prioritize conducting payment recapture audits
on programs or activities that have a higher potential for overpayments and recoveries. Agencies
may exclude certain types of payments from payment recapture audit activities if the agency
determines that payment recapture audits are not a cost-effective method for identifying and
recapturing improper payments. If an agency determines that payment recapture audits would
not be cost effective, it must notify OMB and the agency’s Inspector General and provide
support for this decision.

        BBG’s internal control activities to prevent and detect improper payments are focused on
prepayment reviews. According to BBG officials, in addition to certain automated controls, four
different officials review documentation before a payment is made. For instance, the program
office’s receiving official and the AO will ensure that goods or services were received and
invoices were supported by documentation. In addition, two separate people in the Office of
Financial Operations, the voucher examiner and the certifying officer, review supporting
documentation before a payment is approved. This process is generally used for all domestic
payments, including grants payments and some overseas payments. For overseas payments
made by the Department of State on BBG’s behalf, BBG relies on controls put in place by the
Department.

       BBG does not currently have a standardized process to review payments after they have
been made, such as a payment recapture audit program. During FY 2011, BBG identified six
improper payments, totaling approximately $263,000. 13 However, none of these improper
payments were identified through a formal postpayment review process. Instead, the improper
payments were identified either by a vendor that had not been paid who complained to BBG or
by program officials who noted incorrect fund availability after a payment had been made.

         A BBG official stated that BBG plans to improve its postpayment control activities.
Currently, BBG is in the process of trying to hire a contractor to perform recapture audits to
identify errors made on payments to contractors. A BBG official stated that BBG anticipates
compensating the contractor on a contingency fee basis. In addition, BBG recently hired an
employee to implement OMB Circular A-123 and plans to have this employee develop a method
to test payments, which would improve oversight.

12
   A payment recapture audit is not an audit in the traditional sense; rather, it is a control activity designed to identify

and recapture overpayments and, as such, is a management function and responsibility.

13
   All six improper payments were recovered.


                                                       7
                                                  UNCLASSIFIED
                                        UNCLASSIFIED




        BBG had not implemented a payment recapture audit program because it concluded that
the additional control activities would not be cost effective. Although BBG did not document its
assessment, a BBG official stated that she had performed an analysis of payments to assist in
determining the usefulness of implementing different types of recapture audit techniques. Based
on this analysis and considering the prepayment controls in place, the official concluded that
additional controls would be more costly to perform than the benefits gained. However, BBG
did not notify OMB or OIG of this decision, as was required.

       For overseas payments made on its behalf by the Department of State, BBG did not
implement additional controls because it relied on Department control activities. While the
Department had prepayment controls in place for disbursements, it had not implemented
standardized postpayment controls for overseas payments because of challenges in its
financial management system.

        It is generally more efficient for agencies to ensure payments are made correctly rather
than to try to recover improper payments after they have been made. However, because some
improper payments may be inevitable, agencies also need to implement effective control
activities to identity and recover overpayments. Control activities would also provide data on
why improper payments were made, which would highlight areas that warrant better controls.

        Different types of recapture audit techniques exist that BBG could consider
implementing. For instance, BBG could perform some type of predictive modeling of payments,
which means that BBG would establish criteria to identify potentially high-risk payments for
increased focus. BBG could also consider performing data mining, which is a tool to analyze
data for relationships, such as comparing payments to a recipient. Not all recapture audit
techniques would require a significant outlay of resources to implement.

       By not having a robust recovery auditing process in place, BBG may not be identifying
and recovering all improper payments. Improper payments in a Federal agency can lead
to accomplishing less programmatically than could be expected and could indicate that agencies
are spending more than necessary to meet program goals. Improper payments also represent
wasteful spending and a higher relative tax burden that prompts questions and criticism from the
Congress, the media, and taxpayers. Given the current fiscal environment, it is critical for
Federal agencies to ensure that funds are spent as intended. Agencies need to do more with less,
and resources must be managed properly. One way to do this is to eliminate improper spending.

       Recommendation 2. OIG recommends that the Office of Financial Operations either
       implement a recapture audit program for domestic and overseas payments or perform and
       document a cost-benefit analysis supporting its decision not to implement recapture audit
       techniques. If the Office of Financial Operations implements a recapture audit program,
       the process should be formally documented in its policies. If the Office of Financial
       Operations chooses not to implement a recapture audit program, it should formally notify
       both the Office of Management and Budget and OIG and provide sufficient
       documentation to support the decision.



                                             8
                                        UNCLASSIFIED
                                              UNCLASSIFIED


           BBG Response: BBG stated it is in the process of “soliciting vendors to complete a
           recapture audit for the agency.” BBG also plans to create “post-payment controls” and
           then will perform “post-payment reviews during the fiscal year.”

           OIG Reply: OIG considers the recommendation resolved, pending further action. This
           recommendation can be closed pending OIG’s review and acceptance of BBG’s
           documentation related to the implementation of the recapture audit process.

Finding C. FY 2011 Performance and Accountability Report Did Not Include
All Required Information
        Agency financial reports play a significant role in fulfilling the Government’s duty to be
publicly accountable and can be used to assess an agency’s efficiency and effectiveness in
performing activities, such as identifying and recapturing improper payments. An agency’s PAR
is the method that the agency should use to report information required by IPERA. Although
BBG published its FY 2011 PAR as required, the PAR did not include all required information.
BBG did not provide an explanation as to why these items were excluded from the FY 2011
PAR. OIG noted that BBG’s policies did not include procedures for confirming that the
information included in the PAR was complete. A BBG official stated that BBG would improve
the information reported in the FY 2012 PAR. By not including all required information in its
financial statements, BBG is not providing users with relevant and reliable information about its
efforts related to improper payments.

        IPERA required OMB to issue implementing guidance, including how agencies should
report on actions to reduce improper payments, recovery actions, and governmentwide reporting.
IPERA specifically requires agencies to publish an annual financial statement for the most recent
fiscal year and to post that report, with additional materials required by OMB, on the agencies’
Web sites. OMB Circular A-123, Appendix C, requires agencies to report information in the
format included in OMB Circular A-136. 14

        OIG confirmed that BBG had posted its FY 2011 PAR, which included the annual
financial statements and a section on IPIA reporting, on BBG’s Web site. Although the PAR
included some information required by OMB Circular A-136, it did not include all required data.
For instance, although OMB Circular A-136 requires agencies to document risk-assessment
procedures that it performed to identify programs susceptible to significant improper payments,
the PAR did not clearly inform users that a risk assessment was not performed. In addition, the
PAR did not clearly describe the actions BBG took to determine that a risk assessment was not
needed.

        OMB Circular A-136 requires agencies to describe any programs or activities excluded
from review during a payment recapture audit. This description should include the justification
for not including areas in the review process, such as a discussion of the analysis conducted to
determine that a payment recapture audit program would not be cost effective. BBG does not


14
     OMB Circular A-136, Financial Reporting Requirements.

                                                   9
                                              UNCLASSIFIED
                                                 UNCLASSIFIED


currently have a payment recapture or recovery audit process in place and BBG did not include
information in the PAR to justify its decision not to perform a payment recapture audit process.

        OMB Circular A-136 requires agencies to include information on payments identified
and recovered through sources other than payment recapture audits. The guidance requires
current year and prior year data be included. BBG included some information on payments
identified as improper in FY 2011. However, BBG did not include information on improper
payments that may have been identified by other sources, such as Single Audit Act 15 reports or
grant reviews. BBG also did not report prior year information and did not include the
information in the table format required by OMB.

        When asked why these items were not included in BBG’s PAR, a BBG official agreed
that BBG could have done a better job in describing its approach to a risk assessment and stated
that BBG would improve its reporting in its FY 2012 PAR. The official did not agree that BBG
had excluded any items from its improper payment reviews. As described in Finding B,
although BBG has certain controls in place over payments, it has not implemented a payment
recapture audit process as defined by IPERA, and this information should have been disclosed in
BBG’s PAR. The BBG official also stated that BBG would, as needed, report additional
required information on improper payments identified through other sources and prior year
information in its FY 2012 PAR. OIG noted that BBG’s Broadcasting Administrative Manual
did not include policies or procedures for confirming that the information included in the PAR
was complete.

         It is important that the results of an agency’s actions related to improper payments be
available not only to the Congress and agency management but also to the general public. This
transparency demonstrates the importance that the agency places on openly communicating
performance results. This transparency also acts as an incentive for agencies to maintain their
efforts to address improper payments that can result from lapses in controls. By not including all
required information in its financial statements, BBG is not providing users with relevant and
reliable information about its efforts related to improper payments.

           Recommendation 3. OIG recommends that the Office of Financial Operations develop a
           standardized process to ensure that all required information is included in the
           Broadcasting Board of Governors Performance and Accountability Report and that the
           process is formally documented in its policies.

           BBG Response: BBG concurred that “certain decisions and data were omitted” from the
           FY 2011 PAR. BBG will include those items in the FY 2012 PAR and will supplement
           its procedures for producing the PAR to “include all required components related to
           improper payments” as required by OMB.

           OIG Reply: OIG considers the recommendation resolved, pending further action. This
           recommendation can be closed pending OIG’s review and acceptance of BBG’s FY 2012
           PAR.


15
     The Single Audit Act provides audit requirements to ensure that grants are expended properly.

                                                      10
                                                 UNCLASSIFIED
                                       UNCLASSIFIED



                                List of Recommendations

Recommendation 1. OIG recommends that the Office of Financial Operations either perform a
risk assessment to identify programs at high risk of improper payments or formally document the
factors used to reach its conclusion that a risk assessment is not needed. If the Office of
Financial Operations performs a risk assessment, the process should be formally documented in
its policies. If a risk assessment is not performed, the Office of Financial Operations should
document the Chief Financial Officer’s approval. In addition, the Office of Financial Operations
should reassess the decision annually to ensure that any changes in operating conditions are
considered.

Recommendation 2. OIG recommends that the Office of Financial Operations either implement
a recapture audit program for domestic and overseas payments or perform and document a cost-
benefit analysis supporting its decision not to implement recapture audit techniques. If the
Office of Financial Operations implements a recapture audit program, the process should be
formally documented in its policies. If the Office of Financial Operations chooses to not
implement a recapture audit program, it should formally notify both the Office of Management
and Budget and OIG and provide sufficient documentation to support the decision.

Recommendation 3. OIG recommends that the Office of Financial Operations develop a
standardized process to ensure that all required information is included in the Broadcasting
Board of Governors Performance and Accountability Report and that the process is formally
documented in its policies.




                                            11
                                       UNCLASSIFIED
                                         UNCLASSIFIED



                                                                                     Appendix A

                                   Scope and Methodology
        The Improper Payments Elimination and Recovery Act of 2010 1 (IPERA), which amends
the Improper Payments Information Act 2 (IPIA), requires the Office of Inspector General (OIG)
to conduct an annual audit of the Broadcasting Board of Governors (BBG) compliance with
improper payments requirements. In accordance with the IPERA requirement, OIG performed
this audit to determine whether BBG was in compliance with IPIA, which was amended by
IPERA.

        OIG conducted fieldwork for this audit between January 9 and February 1, 2012, at
BBG’s Office of Financial Operations in Washington, DC. OIG conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that OIG plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for the findings and conclusions based on the audit objective. OIG believes
that the evidence obtained provides a reasonable basis for the findings and conclusions based on
the audit objective.

        To obtain background for the audit, OIG researched and reviewed legislative
requirements related to improper payments, Government Accountability Office reports and
testimony, Office of Management and Budget guidance, information from BBG’s external
financial statement auditor, BBG policies, and Agency Financial Reports and Performance and
Accountability Reports (PAR) from other agencies. In addition, OIG reviewed and analyzed
prior OIG audit work to identify information relating to improper payment issues that had been
reported previously.

        During the audit, OIG evaluated whether BBG had conducted a program-specific risk
assessment for each required program or activity; evaluated BBG’s performance in preventing,
reducing, and recapturing improper payments; and reviewed BBG’s FY 2011 PAR to determine
whether BBG had complied with reporting requirements. In order to accomplish the audit, OIG
interviewed BBG officials to gain an understanding of the procedures for making payments,
identifying improper payments, and preparing the improper payments section of the PAR. OIG
obtained and analyzed the information in BBG’s PAR, and it reviewed BBG’s draft statement of
work for recapture audit services. Because the Department of State makes payments on behalf
of BBG, OIG obtained information from the ongoing audit of the Department’s compliance
with IPIA to determine what controls the Department has in place for overseas payments.

Use of Computer-Processed Data

           OIG did not rely on computer-processed data during this audit.




1
    Pub. L. No. 111-204 § 3(b).
2
    Pub. L. No. 107-300.

                                              12
                                         UNCLASSIFIED
                                      UNCLASSIFIED



Work Related to Internal Controls

        OIG performed steps to identify BBG’s controls related to identifying improper
payments. BBG had not performed a risk assessment or implemented postpayment controls,
but OIG gained an understanding of BBG’s process to approve invoices for payment. Work
performed on internal controls during the audit is detailed in the Audit Results section of the
report.




                                           13
                                      UNCLASSIFIED
                                    UNCLASSIFIED



                                                                                          Appendix B


                                                                                                   i
                                                                                                   I

•
           8ROADCASI1NG BOARI> OF GOVERNORS
           UNITED STAtES OF AMmlCA




    March 6, 2012

    Mr. Harold W. Geisel
    Deputy Inspector General
    Office of Inspector General
    Department of State
    Washington, DC 20522-0308

    Dear, Mr. Geisel:

    This Is In response to your (equasl for comments on the draft management letter related
    to the Audit of the Broadcasting B(lard of Governors Compliance with the Improper
    Payments Information Act. We have reviewed the observations and conclusions of the
    Office of Inspector General (DIG) and have provided the attached responses .

. , assure you that we take the recommendations seriously and will monitor the progress
  made to address each recommel'ldation.

    Thank you for the opportunity to respond.



    Sincerely,



    Maryjean Buhler
    Chief Financial Officer


    Attachment:
    BBG Response

      (b) (6)
                                  Fin,,"ciall Operations




                                         14 

                                    UNCLASSIFIED
                                  UNCLASSIFIED



                                                                                           Appendix B




                        Broadcasting Board of Governors
         Audit of Compliance with the Improper Payments Information Act
                                  February 2012


                   SSG Responses to the Audit Recommendations



Finding A - Risk Assessment was not Performed as Required

Audit Recommendation:

OIG recommends thatt,he Office of Financial Operations either perform a risk
assessment to identify programs at high risk of improper payments or formally
document the factors used to reach its conclusion that a risk assessment is not needed.
II the Office of Financial Operations performs a risk assessment, the process should be
formally documented in its policies. If a risk assesS/Tleflt is not performed, the Office of
Financial Operations should document the Chief Financial Officer's approval. In
addition, the Office of Financial Operations should reassess the decision annually to
ensure that any changes in operating conditions are considered.

BBG Response:

We .anticipate completing a risk assessment of improper payments during fiscal year
20 12 to identify the programs yielding the greatest exposure lor improper payments. A
policy wiY be created for th~ risk assessment activity and will be conducted in
conjunction with the Accounts Payables manager. Results of our findings will be
documented and communicated to the OIG as well as included in the FY2012 PAR.


Finding B - Payment Recapture Audit Techniques were not Implemented as
Required

Audit Recommendation:

OIG recommends that the Office of Financial Operations either implement a recapture
(ludit program for domc~tio and OV0r39t13 payments or perform and document a cost·
benefit analysis supporting its decision not to implement recapture audit techniques. If
the Office of Financial Operations implements a recapture audit program, the process
should be lormally documented in its policies. If the Office of Financial OperationS
chooses not to implement a recapture audit program, it should formally notify both the
Office of Management and Budget and OIG and provide sufficient documentation to
support the decision.




                                       15

                                  UNCLASSIFIED
                                 UNCLASSIFIED



                                                                                           Appendix B




BBG Response:

As mentioned by staff during the audit and noted in your report, the BBG is currently in
the process of soliciting vendors to complete a recapture audit for the agency. The
actual scope and cost of these services is yet to be determined . We also plan on
creating post-payment controls and then pertorming post-payment reviews during the
fiscal year. All new control processes will be documented and results of both the post-
payment audit and supplemental reviews will be reflected in the FY2012 PAR.


Finding C - FY2011 Perfonnance and Accountability Report did not Include all
Required Infannalion

Audit Recommendation:

OIG recommends that the Office of Financial Operations develop a standardized
process to ensure that atl required information is included in the Broadcasting Board of
Governors Pertormance and Accountability Report and that the process is formally
documented tn its policies.

BBG Response:

We concur that certain decisions and data were omitted in the FY2011 PAR. Those
Items wlll now be Included in the FY2012 PAR. In addition, we will supplement our
procedures for creating the PAR to include all required components related to improper
payments as outlined in OMB Circular A-136.




                                      16

                                 UNCLASSIFIED
                                    UNCLASSIFIED



Major Contributors to This Report

Gayle Voshell, Director
Financial Management Division
Office of Audits

Margery Karlin, Auditor
Financial Management Division
Office of Audits




                                         17
                                    UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

